W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-8397

Louis A. Banks

District of Columbia, et al.
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
The District of Columbia; and Mayor Muriel Bowser, Attorney General Karl A. Racine, and Chief of Police
Robert J. Contee, III, in their official capacities.

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Mary L. Wilson

Date:

July 1, 2021

Digitally signed by Mary L. Wilson
Date: 2021.07.01 10:34:32 -04'00'

(Type or print) Name Mary L. Wilson
Mr.

Ms.

Mrs.

Miss

Firm

Office of the Attorney General for the District of Columbia

Address

400 6th Street, NW, Suite 8100

City & State

Washington, D.C.

Phone

(202) 724-5693

Zip 20001
Email

mary.wilson@dc.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Louis A. Banks

